No.
IN THE SUPREME COURT OF THE UNITED STATES
FRANK CONDEZ,
Petitioner,
v.
TOWN OF DARTMOUTH and others
Respondents,
CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I, Gregory V. Sullivan, a member of
the Supreme Court Bar, hereby certify that on December 12, 2019, three (3) copies
of the petition for a writ of certiorari and the certificate of compliance in the above
entitled action were mailed by United States Postal Service first-class mail to the
following:
Counsel for Town of Dartmouth:
Nora R. Adukonis, Esq.
Angela Linson, Esq.
Litchfield Cavo, LLP
6 Kimball Lane, Suite 200
Lynnfield, MA 01940
(781)309-1521
Evan C. Ouellette, Esq.
Leonard Kesten, Esq.
Brody, Hardoon, Perkins & Kesten, LLP
699 Boylston Street
Boston, MA 02116
(617)880-7100

Counsel for Massachusetts Civil Service Commission:
Robert L. Quinan, Jr.
Asst. Attorney General
Commonwealth of Massachusetts
One Ashburton Place, Room 2079
Boston, MA 02108-1698
(617)963-2554
Executed on December 12, 2019
Respectfully submitted,
/s/Gregory V. Sullivan
Gregory V. Sullivan, Esq.
Malloy & Sullivan,
Lawyers Professional Corporation
59 Water Street
Hingham, MA 02043
(781)749-4141
g.sullivan@mslpc.net
Counsel for the Petitioner

